U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
No. 20-888

Re: Abdul Razak Ali v. Joseph R. Biden, Jr., President of the United States, et al.,

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 28,
2020. The government’s response is now due, after two extensions, on April 5, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 5, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0888
ALI, ABDUL RAZAK
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL.

SHAYANA DEVENDRA KADIDAL
CENTER FOR CONSTITIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6438
KADIDAL@CCRJUSTICE.ORG

